    I
    1




                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM




                    OIG received an allegation in which a complainant1 alleged intellectual theft in an
            awarded proposal.2 The Complainant further alleged she was hindered in completing her work
            due to proposal requirements not met, and was consequently unfairly terminated from consulting


                    OIG determined the Complainant willingly shared her project idea with organizational
            representatives, and agreed to subsequently participate on the project as a consultant. OIG
            further determined that other issues the Complainant raised were programmatic in nature and that
        ,   NSF is aware of and is in the process of managing programmatic issues related to this award.

                   Accordingly, this case is closed.




i
